ifOCKLE
^^^^Legal Briefs

2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

Est. 1923

1-800-225-6964
(402)342-2831
Fax: (402) 342-4850

WebSite
www.cocklelegalbriefs.com

No.
JERRY W. WELLS,
Petitioner,
v.

ROBBIN NELSON, ROBERT A. SHARP JR.,
HEATHER ANNE GREENE SHARP,
Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 6512 words, excluding the parts that are exempted by Supreme
Court Rule 33.1 (d), as needed.

Subscribed and sworn to before me this 24th day of August, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

A GENERAL HOTARY-Stati of Mraska
Myeonmf&^SepttmbrS,2023

Notary Public V

Affiant

40082

